Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141

80245
STATE OF NEW YORK,
AFFIDAVIT OF SERVICE

SS:
COUNTY OF NEW YORK

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 19th day of December 2019 deponent served 3 copies of the within
REPLY BRIEF IN SUPPORT OF PETITION FOR A WRIT OF CERTIORARI
upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY
Gordon J. Macdonald
Attorney General Of New Hampshire
Susanp. Mcginnis
Senior Assistant Attorney General
Criminal Justice Bureau7
33 Capitol Street
Concord, NH 03301
(603) 271-3671
susan.mcginnis@doj.nh.gov

Dan Hynes
Liberty Legal Services
212 Coolidge Ave.
Manchester, NH 031 02
(603) 583-4444

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on December 19, 201 9, pursuant to Supreme
Court Rule 29.5[c). All parties required to be served, have been served.

d~~
Howard Daniels

dJ~

Sworn to me this
December 19, 2019
ALESSANDRA L. KANE
Notary Public, State of New York
No. 01 KA6340521
Qualified in Richmond County
Commission Expires April 18, 2020

o~jpk

Case Name: Lilley v. The State of New
Hampshire
Docket No. 1 9-64

